Department of Homeland Security
   Ofﬁce of Inspector General

            The State of Tennessee’s Management of 

             State Homeland Security Program and 

                 Urban Areas Security Initiative 

                    Grants Awarded During 

                Fiscal Years 2006 through 2008 





OIG-11-29                                        January 2011
                                                         Office ofInspector General

                                                         U.S. Department of Homeland Security
                                                         Washington, DC 20528



                                                         Homeland
                                                         Security
                                      JAN 13 2011

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

The attached report presents the results of the audit ofthe State of Tennessee's
management of State Homeland Security Program and Urban Areas Security Initiative
grants awarded during Fiscal Years 2006 through 2008. We contracted with the
independent public accounting firm Foxx & Company to perform the audit. The contract
required that Foxx & Company perform its audit according to generally accepted
government auditing standards. Foxx & Company's report identifies one reportable
condition where State management of the grant funds could be improved, resulting in one
recommendation addressed to the Assistant Administrator, Grant Programs Directorate,
Federal Emergency Management Agency. Foxx & Company is responsible for the
attached auditor's report dated October 22,2010, and the conclusions expressed in the
report.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      ~/~
                                      Anne L. Richards
                                      Assistant Inspector General for Audits
October 22, 2010

Ms. Anne L. Richards
Assistant Inspector General for Audits
Office of Inspector General
U.S. Department of Homeland Security
245 Murray Drive, S.W. Building 410
Washington, D.C. 20528

Dear Ms. Richards:

Foxx & Company performed an audit of the State of Tennessee’s management of the
Department of Homeland Security’s State Homeland Security Program and Urban Areas
Security Initiative grants for Fiscal Years 2006 through 2008. The audit was performed
according to our Task Order No. TPD-FIG-BPA-07-0007 dated September 29, 2009.
This report presents the results of the audit and includes recommendations to help
improve the State’s management of the State Homeland Security Program and Urban
Areas Security Initiative grants.

We conducted the audit according to applicable Government Auditing Standards, 2007
revision. The audit was a performance audit as defined by Chapter 1 of the Standards
and included a review and report on program activities with a compliance element.
Although the audit report comments on costs claimed by the State, we did not perform a
financial audit, the purpose of which would be to render an opinion on the State of
Tennessee’s financial statements or the funds claimed in the Financial Status Reports
submitted to the Department of Homeland Security.

We appreciate the opportunity to have conducted this audit. Should you have any
questions, or if we can be of any further assistance, please call me at (513) 639-8843.

Sincerely,

Foxx & Company



Martin W. O’Neill
Partner
Table of Contents/Abbreviations 



Executive Summary .......................................................................................................... 1 


Background ....................................................................................................................... 2


Results of Audit ................................................................................................................ 5 


           Compliance with Inventory Requirements ........................................................... 6 

           Recommendation .................................................................................................. 8 

           Management Comments and Auditors’ Analysis ................................................. 8 


Appendices

           Appendix A: Purpose, Scope, and Methodology ................................................ 9 

           Appendix B: Organization Chart ...................................................................... 12 

           Appendix C: Report Distribution ..................................................................... 13 


Abbreviations

           DHS                   Department of Homeland Security
 

           FEMA                  Federal Emergency Management Agency 

           FY                    Fiscal Year            

           OIG                   Office of Inspector General 

OIG 

Department of Homeland Security
Office of Inspector General

Executive Summary
                      Foxx & Company completed an audit of the State of Tennessee’s
                      Management of State Homeland Security Program and Urban
                      Areas Security Initiative grants awarded during fiscal years 2006
                      through 2008. The audit objective was to determine whether the
                      State distributed and spent Homeland Security Grant Program
                      funds strategically, effectively, and in compliance with laws,
                      regulations, and guidance. The audit included a review of
                      approximately $40.9 million in State Homeland Security Program
                      and Urban Areas Security Initiative grants awarded by the Federal
                      Emergency Management Agency to the State of Tennessee.

                      Generally, the State did an efficient and effective job of
                      administering program requirements in accordance with grant
                      guidance and regulations. The State used reasonable
                      methodologies for assessing threat, vulnerability, capability, and
                      prioritized needs, and developed measurable goals and objectives
                      based upon risk assessments. The State’s funding allocations were
                      linked to all-hazard capabilities. Also, the State’s procurement
                      methodology and practices were in conformance with federal
                      requirements. The State effectively monitored the grant programs.

                      However, the State needed to improve its compliance with
                      inventory requirements for equipment purchased with grant funds.
                      Our one recommendation calls for the Federal Emergency
                      Management Agency to initiate improvements which, if
                      implemented, should help strengthen program management,
                      performance, and oversight.

                      Federal Emergency Management Agency and State officials
                      verbally concurred with our finding and recommendation, and
                      elected not to provide written comments.




          The State of Tennessee’s Management of State Homeland Security Program and 

       Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 1
 

Background
                    The Homeland Security Grant Program is a federal assistance grant
                    program administered by the U.S. Department of Homeland
                    Security (DHS), Grant Programs Directorate within the Federal
                    Emergency Management Agency (FEMA). The current Grant
                    Programs Directorate, hereafter referred to as FEMA, began with
                    the Office of Domestic Preparedness, which was transferred from
                    the Department of Justice to DHS in March 2003. The Office of
                    Domestic Preparedness was subsequently consolidated into the
                    Office of State and Local Government Coordination and
                    Preparedness which, in part, became the Office of Grants and
                    Training, and which subsequently became part of FEMA.

                    Although the grant program was transferred to DHS, applicable
                    Department of Justice grant regulations and legacy systems still
                    were used as needed to administer the program. For example,
                    through Fiscal Year (FY) 2008 the Office of Justice Programs’
                    Grants Management System was used to receive grantee
                    applications and to administer the award and reporting processes.
                    Also, prior to the transfer, the State Administrative Agency entered
                    payment data into the Office of Justice Programs’ Phone Activated
                    Paperless Request System, which was a drawdown payment
                    system for grant funds. That payment system was replaced in
                    April 2007 by FEMA’s Payment and Reporting System. This
                    system allows grantees to make payment requests and complete
                    and transmit their quarterly Financial Status Reports online.

                    Homeland Security Grant Program

                    The Homeland Security Grant Program provides federal funding to
                    help state and local agencies enhance their capabilities to prevent,
                    deter, respond to, and recover from terrorist attacks, major
                    disasters, and other emergencies. The Homeland Security Grant
                    Program encompasses several interrelated federal grant programs
                    that together fund a range of preparedness activities, including
                    planning, organization, equipment purchase, training, and
                    exercises, as well as management and administration costs.
                    Depending on the fiscal year, the program included some or all of
                    the programs:

                    •	 State Homeland Security Program supports the
                       implementation of State Homeland Security Strategies to
                       address the identified planning, organization, equipment,
                       training, and exercise needs to prevent, protect against, respond

        The State of Tennessee’s Management of State Homeland Security Program and 

     Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                            Page 2
 

                    to, and recover from acts of terrorism and other catastrophic
                    events.

               •	 Urban Areas Security Initiative Program funds address the
                  unique planning, organization, equipment, training, and
                  exercise needs of high-threat, high-density Urban Areas, and
                  assists the areas in building an enhanced and sustainable
                  capacity to prevent, protect against, respond to, and recover
                  from acts of terrorism.

               •	 Law Enforcement Terrorism Prevention Program provides
                  resources to law enforcement and public safety communities
                  (working with their private partners) to support critical
                  terrorism prevention activities, including: establishing /
                  enhancing fusion centers and collaborating with non-law
                  enforcement partners, other government agencies, and the
                  private sector.

               •	 Citizen Corps Program mission is to bring community and
                  government leaders together to coordinate the involvement of
                  community members in emergency preparedness, planning,
                  mitigation, response, and recovery.

               •	 Metropolitan Medical Response System Program supports
                  the integration of emergency management, health, and medical
                  systems into a coordinated response to mass casualty incidents
                  caused by any hazard. Successful MMRS grantees reduce the
                  consequences of a mass casualty incident during the initial
                  period of a response by having augmented existing local
                  operational response systems before an incident occurs.

               State Administrative Agency

               The governor of each state appoints a State Administrative Agency
               to administer the Homeland Security Grant Programs. The State
               Administrative Agency is responsible for managing these grant
               programs according to established federal guidelines. It is also
               responsible for allocating funds to local, regional, and other state
               government agencies.

               In 2003, Tennessee’s Governor designated the State of
               Tennessee’s Department of Military to be the State Administrative
               Agency for the Homeland Security Grant Programs. The
               Department of Military administered all of the Homeland Security


   The State of Tennessee’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 3

               Grant Programs grants included in our audit. The State’s
               homeland security organizational chart is included in Appendix B.

               The State of Tennessee is divided into 3 Regions and 11 State
               Homeland Security Districts, including 2 Urban Areas Security
               Initiative areas: Nashville and Memphis. District Councils
               comprised of local government officials within the State Homeland
               Security Districts determine grant funding priorities within the
               Districts. The Department of Military and the Office of Homeland
               Security work closely with the State Homeland Security Districts
               and Urban Areas Security Initiative areas to support their needs,
               synchronize strategies, and establish consistent priorities across
               Tennessee.

               Grant Funding

               The State of Tennessee received approximately $54.5 million from
               the Homeland Security Grant Program during FYs 2006 through
               2008. As part of this program, the State received $40.9 million in
               State Homeland Security Program and Urban Areas Security
               Initiative grants. The State Administrative Agency awarded
               subgrants to counties, state agencies, and two Urban Areas
               Security Initiative areas. The counties and urban areas purchased
               equipment and distributed it to local governments and first
               responders. These entities also provided training and planned
               exercises. The State of Tennessee subawarded State Homeland
               Security Program and Urban Areas Security Initiative grants to the
               following:

                    •	 2006: 64 subawards to 60 counties, 3 state agencies, and
                       1 urban area;
                    •	 2007: 82 subawards to 77 counties, 4 state agencies, and
                       1 urban area; and
                    •	 2008: 71 subawards to 65 counties, 4 state agencies, and
                       2 urban areas.

               Table 1 displays a breakdown of the Homeland Security Grant
               Program awards to the State of Tennessee by year.




   The State of Tennessee’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 4
 

                                                         Table 1
                                                  Tennessee
                                    Homeland Security Grant Program Awards
                                        Fiscal Years 2006 through 2008
                                                    (‘000s)
                        Funded Activity           FY 2006       FY 2007       FY 2008          Total

                      State Homeland
                      Security Program               $ 4,780      $ 8,250       $12,880        $25,910
                      Urban Areas
                      Security Initiative            $ 4,200      $ 4,590       $ 6,236        $15,026
                      Law Enforcement
                      Terrorism                                             Not
                      Prevention Program             $ 3,480      $ 5,890 Applicable           $ 9,370
                      Citizen Corps
                      Program                        $   373      $   282       $    287       $   942
                      Metropolitan
                      Medical Response
                      System Program                 $ 929        $ 1,033       $ 1,285        $ 3,247
                              Total                  $13,762      $20,045       $20,688        $54,495

                     Foxx & Company completed an audit of the State of Tennessee’s
                     management of DHS’ State Homeland Security Program and
                     Urban Areas Security Initiative grants awarded during FY 2006
                     through FY 2008. The objective of the audit was to determine
                     whether the State distributed and spent Homeland Security Grant
                     Program funds strategically, effectively, and in compliance with
                     laws, regulations, and guidance. Nine researchable questions
                     provided by the DHS OIG established the framework for the audit.
                     The researchable questions were related to the State Administrative
                     Agency’s planning, management, and evaluations of grant
                     activities. Appendix A provides additional details on the purpose,
                     scope, and methodology of this audit, including the nine
                     researchable questions.

Results of Audit
     State Grants Management Practices Were Generally Effective,
     But Require Some Improvements in Inventory Compliance
            Generally, the State did an efficient and effective job of administering
            program requirements in accordance with grant guidance and regulations.
            The State used reasonable methodologies for assessing threat,
            vulnerability, capability, and prioritized needs, and developed measurable

         The State of Tennessee’s Management of State Homeland Security Program and 

      Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                             Page 5
 

       goals and objectives based upon risk assessments. The State’s funding
       allocations were linked to all-hazard capabilities. Also, the State’s
       procurement methodology and practices were in conformance with federal
       requirements. The State effectively monitored the grant programs.

       However, the State needed to improve its compliance with inventory
       requirements for equipment purchased with Homeland Security grant
       funds.

Compliance with Inventory Requirements
       Three subgrantees visited during the audit were not performing the
       required physical inventories of assets procured with federal grant funds.
       As a result, the state did not have reasonable assurance that assets
       procured with Homeland Security grant funding were adequately
       safeguarded to prevent loss, damage, or theft of the property.

       A provision in FEMA regulations on administrative requirements for
       grants to state and local governments, found in Code of Federal
       Regulation Title 44 § 13.32(d) Management requirements, lists
       requirements for managing equipment, whether acquired in whole or in
       part with grant funds, until disposition takes place. It requires, at a
       minimum, the following:

            •	 Property records must be maintained that include a description of
               the property, a serial number or other identification number, the
               source of property, who holds title, the acquisition date, and cost of
               the property, percentage of Federal participation in the cost of the
               property, the location, use and condition of the property, and any
               ultimate disposition data including the date of disposal and sale
               price of the property.

            •	 A physical inventory of the property must be taken and the results
               reconciled with the property records at least once every two years.

            •	 A control system must be developed to ensure adequate safeguards
               to prevent loss, damage, or theft of the property. Any loss,
               damage, or theft shall be investigated.

            •	 Adequate maintenance procedures must be developed to keep the
               property in good condition.

            •	 If the grantee or subgrantee is authorized or required to sell the
               property, proper sales procedures must be established to ensure the
               highest possible return.

    The State of Tennessee’s Management of State Homeland Security Program and 

 Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                        Page 6

      In addition, the State of Tennessee’s contract with subgrantees requires the
      subgrantees to:

           •	 Be responsible for the accountability, maintenance, management,
              and inventory of all property purchased totally or in part with
              federal grant funds;

           •	 Maintain a perpetual inventory system for all equipment purchased
              with federal funds;

           •	 Conduct annual inventories, compare the results of the inventory
              with the subgrantees property records, and investigate any
              differences; and

           •	 Adjust the inventory control report to reflect the results of the
              physical inventory and subsequent investigation.

      The State was not enforcing the requirement under its grantee-subgrantee
      contracts to perform physical inventories of assets. The subgrantees
      visited, including the ones that were not complying with the physical
      inventory requirements, were maintaining appropriate property records.
      The property records being maintained complied with FEMA and state
      property management requirements and included a description of the
      property, a serial number or other identification number, the source of
      property, who holds title, the acquisition date, the cost of the property, and
      the percentage of Federal participation in the cost of the property.
      However, physical inventories provide visual assurances concerning the
      location, use, and condition of property. Without routine physical
      inventories, the state and subgrantees did not have reasonable assurance
      that the property was being adequately safeguarded to prevent loss,
      damage, or theft.

      Officials from the three non-compliant subgrantees said that, once the
      equipment was purchased and passed down to subrecipients, they believed
      that they no longer had responsibility for the equipment. One subgrantee
      official said that staff was not available to perform physical inventories of
      all the equipment purchased with Homeland Security grant funding.

      Nevertheless, the State and the subgrantees were responsible for ensuring
      that inventory requirements were enforced. After discussing our
      observation with State officials, all the subgrantees were notified to
      comply with the inventory requirements in the Tennessee grantee-
      subgrantee contract.



   The State of Tennessee’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 7

      Recommendation
               We recommend that the Assistant Administrator, Grant Programs
               Directorate, require the Director, Tennessee Department of
               Military to:

               Recommendation #1: Enforce the requirement to conduct
               physical inventories of equipment purchased with federal funds
               and develop and implement procedures, as part of routine
               monitoring visits, to ensure that inventories are being conducted.

      Management Comments and Auditors’ Analysis
               FEMA and State officials verbally concurred with our finding and
               recommendation and elected not to provide written comments.

               The State provided us a copy of an email it sent to all grant
               subrecipients. The email reaffirmed physical inventory
               requirements and directed the subrecipients to submit copies of
               inventory control reports to the State. In addition, State officials
               said that, as a part of routine monitoring, they will ensure that
               grant-funded equipment is inventoried as required by federal
               regulations. These actions meet the intent of our recommendation.
               As a result, this recommendation is considered resolved and
               closed.




   The State of Tennessee’s Management of State Homeland Security Program and 

Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                       Page 8
 

Appendix A
Purpose, Scope, and Methodology

                       The purpose of the audit was to determine whether the State of
                       Tennessee distributed and spent State Homeland Security Program
                       and Urban Areas Security Initiative grant funds strategically,
                       effectively, and in compliance with laws, regulations, and
                       guidance. The goal of the audit was to identify problems and
                       solutions that can help the State of Tennessee better prepare for
                       and respond to threats acts of terrorism, and other hazards. The
                       audit further enabled us to answer the following nine researchable
                       questions:

                            •   Were measurable goals developed from plans?
                            •   Do funded plans link all-hazards capabilities to goals?
                            •   Were funds and resources distributed based on goals?
                            •   Does the State accurately measure risk?
                            •   Does the State measure response capabilities?
                            •   Can the State demonstrate improved performance?
                            •   Were grants administered compliantly?
                            •   Did the State monitor grant programs?
                            •   What innovative practices can be used by other states?

                       The scope of the audit included the State Homeland Security
                       Program and Urban Areas Security Initiative grant awards for
                       Fiscal Years 2006, 2007, and 2008 as described in the Background
                       section of this report.

                       The audit methodology included work at FEMA Headquarters,
                       state offices, and numerous local government and first responder
                       locations. To achieve our audit objective, we analyzed data,
                       reviewed documentation, and interviewed the key state and local
                       officials directly involved in the management and administration of
                       Tennessee’s Homeland Security Grant Program. As listed below,
                       we conducted site visits and held discussions with officials from
                       the Memphis and Nashville urban areas, six Homeland Security
                       Districts, six counties, six state agencies, and ten first responder
                       locations in order to determine if program grant funds were
                       expended according to grant requirements and grant-funded
                       property was safeguarded.

                       Urban Areas
                          • Memphis
                          • Nashville




           The State of Tennessee’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                               Page 9
 

Appendix A
Purpose, Scope, and Methodology

                       Districts and counties:
                          • Homeland Security District 1, Washington County
                          • Homeland Security District 2, Knox County
                          • Homeland Security District 4, Putman County
                          • Homeland Security District 5, Davidson County
                          • Homeland Security District 5, Williamson County
                          • Homeland Security District 7, Montgomery County
                          • Homeland Security District 11, Shelby County

                       Tennessee state agencies
                          • Department of Agriculture
                          • Department of Health
                          • Department of Safety
                          • Department of Transportation
                          • Emergency Management Agency
                          • Office of Homeland Security

                       First Responder organizations
                           • Knox County Fire Station
                           • Knox County Sheriff’s Department Aviation Hanger
                           • Memphis Police Department
                           • Memphis Fire Engine Company No. 1
                           • Memphis Fire Engine Company No. 3
                           • Nashville Fire Department
                           • Nashville Fire Station
                           • Nashville Police Department
                           • Washington County Bomb Squad
                           • Washington County Hazmat Team

                       At these locations, we interviewed responsible officials, reviewed
                       documentation supporting State and subgrantee management of the
                       grant funds, and physically inspected equipment procured with the
                       grant funds.

                       We conducted the audit between December 2009 and May 2010,
                       according to Government Auditing Standards as prescribed by the
                       Comptroller General of the United States (Yellow Book-2007
                       Revision). Those standards require that we plan and perform the
                       audit to obtain sufficient, appropriate evidence to provide a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives. We believe that the evidence obtained provides a
                       reasonable basis for our findings and conclusions based on our
                       audit objectives.

           The State of Tennessee’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 10

Appendix A
Purpose, Scope, and Methodology


                       Although this audit included a review of costs claimed, we did not
                       perform a financial audit of those costs. This was a performance
                       audit as defined by Chapter 1 of the Standards, and included a
                       review and report of program activities with a compliance element.
                       Foxx & Company was not engaged to and did not perform a
                       financial statement audit, the objective of which would be to
                       express an opinion on specified elements, accounts, or items.
                       Accordingly, we were neither required to review, nor express an
                       opinion on, the costs claimed for the grant programs included in
                       the scope of the audit. Had we been required to perform additional
                       procedures, or conducted an audit of the financial statements in
                       accordance with generally accepted auditing standards, other
                       matters might have come to our attention that would have been
                       reported. This report relates only to the programs specified and
                       does not extend to any financial statements of the State of
                       Tennessee.

                       While the audit was being performed and the report prepared under
                       contract, the audit results are being reported by the DHS Office of
                       Inspector General to appropriate FEMA and State of Tennessee
                       officials.




           The State of Tennessee’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 11
 

Appendix B
Organization Chart


                                  State of Tennessee 

                               Homeland Security Offices
 





           The State of Tennessee’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 12
Appendix C
Report Distribution



                       Department of Homeland Security

                       Secretary
                       Deputy Secretary
                       Chief of Staff
                       Deputy Chief of Staff
                       General Counsel
                       Executive Secretary
                       Director, GAO/OIG Liaison Office
                       Assistant Secretary for Office of Policy
                       Assistant Secretary for Office of Public Affairs
                       Assistant Secretary for Office of Legislative Affairs

                       Federal Emergency Management Agency

                       Administrator
                       Assistant Administrator, Grant Programs Directorate
                       Federal Emergency Management Agency Audit Liaison
                       Grant Programs Directorate Audit Liaison

                       Office of Management and Budget

                       Chief, Homeland Security Branch
                       DHS OIG Budget Examiner

                       Congress

                       Congressional Oversight and Appropriations Committees, as
                       appropriate




           The State of Tennessee’s Management of State Homeland Security Program and 

        Urban Areas Security Initiative Grants Awarded During Fiscal Years 2006 through 2008 


                                              Page 13
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
